Audit Report




                                                     




 OIG-11-103
 RECOVERY ACT: Audit of EcoGrove Wind LLC Payment
 Under 1603 Program


 September 19, 2011

 Office of
 Inspector General
 DEPARTMENT OF THE TREASURY
 
Contents


Audit Report

  Results in Brief ............................................................................................   1

  Background ................................................................................................     3

  Objectives, Scope, and Methodology .............................................................                5

  Audit Results ..............................................................................................    6

  Recommendations ....................................................................................... 13

Appendices

  Appendix     1:      Schedule of Questioned Costs................................................ 16
  Appendix     2:      EcoGrove Wind, LLC’s Response ............................................ 17
  Appendix     3:      Management’s Response ........................................................ 29
  Appendix     4:      Major Contributors to This Report ............................................ 30
  Appendix     5:      Report Distribution ................................................................. 31


Abbreviations

  AENA                 Acciona Energy North America Corporation
  AWE                  Acciona Wind Energy USA, LLC
  AWP                  Acciona Windpower North America, LLC
  EcoGrove             EcoGrove Wind, LLC
  NREL                 National Renewable Energy Laboratory
  OFAS                 Office of the Fiscal Assistant Secretary
  OIG                  Office of Inspector General
  OMB                  Office of Management and Budget
  Recovery Act         American Recovery and Reinvestment Act of 2009
  TD                   Treasury Directive
  Treasury             Department of the Treasury
  Treas. Reg.          Treasury Regulation
This Page Intentionally Left Blank
                                                                                      Audit
OIG
The Department of the Treasury
                                                                                      Report
Office of Inspector General



                       September 19, 2011

                       Richard L. Gregg
                       Fiscal Assistant Secretary
                       Department of the Treasury

                       As part of our ongoing oversight of the Department of the
                       Treasury’s (Treasury) 1603 Program – Payments for Specified
                       Energy Property in Lieu of Tax Credits (1603 Program) 1
                       authorized by the American Recovery and Reinvestment Act of
                       2009 (Recovery Act), 2 we are conducting audits of selected
                       award recipients. In this regard, we have audited the award
                       made to EcoGrove Wind, LLC (EcoGrove) for a wind energy
                       facility in Stephenson County, Illinois. EcoGrove submitted its
                       claim for payment in lieu of tax credit in the amount of
                       $67,868,807 on October 15, 2009, and was awarded that
                       amount by Treasury on October 30, 2009. Our audit objectives
                       were to assess the eligibility and accuracy of that award by
                       determining whether (1) the property existed, (2) the property
                       was placed into service during the eligible timeframe, and (3) the
                       award amount was appropriate.


Results in Brief
                       We verified that the subject property described by EcoGrove in
                       its 1603 Program application does exist and was placed in
                       service on July 9, 2009, which was within the eligible
                       timeframe. EcoGrove’s reported cost basis of $226,229,356 for
                       the subject property included $6,934,838 for costs that we
                       believe do not comply with Treasury Regulation (Treas. Reg.)


1
  Treasury’s Office of the Fiscal Assistant Secretary (OFAS) administers this program.
2
  Pub. L. No. 111-5, 123 Stat. 115 (Feb. 17, 2009). Under §1603 of the Recovery Act, Treasury
makes grants (payments) to eligible persons who place in service specified energy property and apply
for such payments. The purpose of the payments is to reimburse eligible applicants for a portion of
the expense of such property and are made in lieu of tax credits that could potentially be claimed by
the awardees.


                       Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)         Page 1
§1.263A-1, EcoGrove’s wind turbine supply agreement, or
Treasury’s Program Guidance. Ineligible costs are as follows:

   •   $5,348,438 for interest for late payment
   •   $831,160 for an extended warranty
   •   $647,110 for spare parts
   •   $79,000 for transmission lines
   •   $29,130 for office furniture

As a result, we question $2,080,452 of Treasury’s 1603
Program award to EcoGrove (30 percent of $6,934,838). We are
recommending that OFAS (1) ensure that EcoGrove reimburse
Treasury $2,080,452 for the excessive 1603 Program payment
received and (2) direct EcoGrove, Acciona Energy North America
Corporation, and affiliated companies not to include in
applications for 1603 Program awards inappropriate or otherwise
ineligible costs in the claimed cost basis.

As part of our reporting process over 1603 Program awardees,
we provided EcoGrove management an opportunity to comment
on this draft report. In a written response, EcoGrove
management did not concur with all of our questioned costs;
instead, management agreed to $118,263 of the questioned
costs and plans to reimburse Treasury $35,479 (30 percent of
$118,263). We have summarized and evaluated EcoGrove’s
response in the Audit Results section of this report. The response
is provided as appendix 2.

Treasury management expressed partial concurrence with our
recommendations and agreed that EcoGrove should reimburse
Treasury $35,479 for costs associated with transmission lines,
office furniture, and expendable spare parts. However,
management was unable to make a determination with respect
to the remainder of the costs questioned. Management plans to
seek guidance on the tax accounting issues and will take all
appropriate action to seek reimbursement if warranted. The
response is provided in appendix 3.




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 2
Background
                        Eligibility Under the 1603 Program

                        Applicants are eligible for a 1603 Program award if a specified
                        energy property is placed in service during calendar years 2009,
                        2010, or 2011 3 and the amount awarded is in accordance with
                        provisions of the Internal Revenue Code of 1986 for determining
                        the appropriate cost basis. Under the 1603 Program, applicants
                        submit an application to Treasury that reports the total eligible
                        cost basis of a specified energy property placed in service. If
                        approved, award amounts are based on a percent of the eligible
                        cost basis. For the type of property claimed by EcoGrove, the
                        percentage of the cost basis eligible for award is 30 percent.
                        According to OFAS program guidance, the cost basis of the
                        subject property is determined in accordance with the general
                        rules for determining the cost basis of property for federal
                        income tax purposes. Specifically, for this type of property,
                        applicants follow the capitalization procedures found in Treas.
                        Reg. §1.263A-1, “Uniform Capitalization of Costs.” 4




3
 Section 707 of the “Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of
2010,” extended Treasury’s 1603 Program for one year. To be eligible, a property must be placed in
service in 2009, 2010, or 2011 or placed in service after 2011 but only if construction of the
property began during 2009, 2010 or 2011. The application deadline was extended to September
30, 2012.

4
 Treas. Reg. §1.263A-1(a)(3) (ii), Property produced: Taxpayers that produce real property and
tangible personal property (producers) must capitalize all the direct costs of producing the property
and the property's properly allocable share of indirect costs (described in paragraphs (e)(2)(i) and (3)
of this section), regardless of whether the property is sold or used in the taxpayer's trade or
business.


                        Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)            Page 3
EcoGrove

EcoGrove is wholly owned by Acciona Wind Energy USA, LLC
(AWE), and entered into a wind turbine supply agreement on
December 30, 2008, with AWE’s sister company, Acciona
                                                 Windpower North
                                                 America, LLC (AWP),
                                                 for the manufacture
                                                 and supply of 67
                                                 Acciona 1.5
                                                 megawatt wind
                                                 turbine generators that
                                                 would generate
                                                 278.33 gigawatt
                                                 hours of electricity
                 OIG Photograph (March 30, 2010) annually. The parent
company of AWE and AWP is Acciona Energy North America
Corporation (AENA). The parent company of AENA is Acciona,
S.A., a foreign corporation headquartered in Spain. To date,
AENA affiliates have received $70 million in 1603 payments. The
relationship of these entities is shown in figure 1.

Figure 1.
                    Acciona Energy North
                    America Corporation
                          (AENA)




  Acciona Wind Energy                 Acciona Windpower
    USA, LLC (AWE)                    North America, LLC
  (100% owned by parent)                    (AWP)


  EcoGrove Wind, LLC
   (100% owned by AWE)




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 4
Objectives, Scope, and Methodology
                     To assess the eligibility and accuracy of the award made to
                     EcoGrove under the 1603 Program, we determined whether (1)
                     the property existed, (2) the property was placed into service
                     during the eligible timeframe, and (3) the award amount was
                     appropriate.

                     In performing our work, we visited EcoGrove’s headquarters in
                     Chicago, Illinois, and the subject property in Stephenson County,
                     Illinois; interviewed key personnel of EcoGrove, AENA, AWP, and
                     key personnel associated with its independent public accountant;
                     reviewed the application and related documents used by the
                     Department of Energy’s National Renewable Energy Laboratory
                     (NREL); 5 and reviewed documentation used to support the costs
                     claimed by EcoGrove. We also obtained clarification from OFAS
                     and Internal Revenue Service personnel on eligible costs under
                     the 1603 Program. We performed our work between March
                     2010 and February 2011.

                     Our audit was conducted in accordance with generally accepted
                     government auditing standards for performance audits. Those
                     standards require that we plan and perform an audit to obtain
                     sufficient, appropriate evidence to provide a reasonable basis for
                     our findings and conclusions based on our audit objectives. We
                     believe that the evidence obtained provides a reasonable basis
                     for our findings and conclusions based on our audit objectives.




5
 NREL is a national laboratory of the Department of Energy. Under an interagency agreement
between Treasury and Department of Energy, NREL performs the technical review of 1603 Program
applications and advises Treasury on award decisions.


                     Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)    Page 5
Audit Results
                         Questioned Costs 6 in EcoGrove’s Claimed Cost Basis
                          Cost Description          Claimed Cost Basis     Questioned Costs    Notes
                  Wind turbines                          $183,411,330           $6,905,708    1,2,3,4
                  Transformers                               5,248,568                    0
                  Substation                                 1,064,218                    0
                  Collection system                        11,864,292                     0
                  Wind farm roads                            8,892,563                    0
                  Weather-monitoring equipment                 513,767                    0
                  Wind farm control and                        174,835                    0
                  monitoring software
                  Other                                     15,059,783               29,130        5
                  Total approved cost basis               $226,229,356
                  Total questioned costs                                       ($6,934,838)
                   Recalculated cost basis                                    $219,294,518

                  Recalculated award (30                                       $65,788,355
                  percent of recalculated cost
                  basis)
                  Amount Awarded                                              ($67,868,807)
                   Overpayment resulting from                                  ($2,080,452)
                  questioned costs

                         Note 1. Interest for Late Payment ($5,348,438 questioned costs)

                         EcoGrove’s wind turbine supply agreement with related party
                         AWP provided for the manufacture and supply of 67 wind
                         turbines at a cost of $159,674,333. The claimed costs that
                         EcoGrove used in making its application to Treasury under the
                         1603 Program include interest for late payment 7 that was
                         improperly charged by AWP, and therefore, should not be
                         included in the subject property’s cost basis. The details of these
                         questioned costs are as follows:

                                Interest assessed prior to the contract           $2,034,370 (a)
                                Unsupported interest penalty                       3,314,068 (b)
                                Total interest assessed                           $5,348,438

                         (a) EcoGrove was assessed interest for nonpayment for the
                             period April 2008 through December 2008, which was prior

6
    See appendix 1 for the definition of questioned costs.
7
    Late payment is referred to as interest in AWP’s “Wind Turbine Supply Agreement §3.5”.


                         Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)      Page 6
    to the date of the wind turbine supply agreement, December
    30, 2008. Therefore, no amount was due in accordance with
    the agreement.

(b) EcoGrove included an interest assessment for nonpayment in
    its 1603 claim that was unsupported. Specifically, EcoGrove
    was unable to provide us with documentation to show that
    this interest was paid in accordance with the terms of the
    wind turbine supply agreement. What was provided as
    support was an invoice from AWP for interest; however, that
    invoice did not have anything to do with this agreement. In
    fact, the invoice provided to us included an interest
    assessment based on the wrong principal due, the wrong
    interest rate, and the wrong time period.

EcoGrove Response

EcoGrove did not concur with our finding as follows.

•   With respect to (a), Interest assessed prior to the contract, a
    common industry practice in the construction of wind farms is
    for the constructing company to incur costs at the beginning
    of a project and then charge interest to the company
    receiving the wind farm. Under the Second Restatement of
    Contracts, usage is defined as a habitual or customary
    practice. A “usage of trade” is a usage having such regularity
    of observance in a place, vocation, or trade as to justify an
    expectation that it will be observed with respect to a
    particular agreement. Unless otherwise agreed, a usage of
    [the vocation or] trade in the trade in which the parties are
    engaged or a usage of trade of which they know or have
    reason to know gives meaning to or supplements [or qualifies]
    their agreement.

    In addition, the substance of a transaction governs its tax
    treatment not its form. Furthermore, every contract imposes a
    duty upon each party a duty of good faith; good faith can be
    described as faithfulness to an agreed common purposes and
    consistency with the justified expectation of the other party.




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 7
    Even though a contract had not been signed until December
    30, 2008, both AWP and EcoGrove were aware of the
    customary practice that AWP would incur costs and charge
    EcoGrove interest for those costs. Both were operating under
    the premise that an implied contract existed for the interest
    that AWP would be charging EcoGrove based on the industry
    practice.

•   With respect to (b), Unsupported interest penalty, interest
    was calculated in accordance with the terms of the wind
    turbine supply agreement and properly included in the basis.
    The agreement required EcoGrove to make payments at
    typical industry milestones, such as substantial completion of
    each turbine. EcoGrove did not have the funds to pay the
    required installments due to AWP at the times called for by
    the contract. As such, EcoGrove incurred interest subject to
    provisions of the agreement.

OIG Comment

Based on the results of our audit and assessment of its response,
we do not believe that EcoGrove has supported the questioned
interest amounts included in the project’s cost basis.

(a) We considered EcoGrove’s position that the wind turbine
    supply agreement should be interpreted not to restrict, but to
    include the terms regarding the payment of interest before the
    contract execution date as a trade usage. However, the wind
    turbine supply agreement clause 19.7 states that the
    agreement and the contract documents “supersede all prior
    discussions and agreements between the Parties” and
    contains “the sole and entire agreement between the Parties”
    and, more particularly, that “there are no agreements,
    understandings, representations, or warranties between the
    Parties other than those set forth herein or therein.”

    Therefore, the wind turbine supply agreement is, within the
    four corners of the document, complete and specific and
    must be considered an integrated agreement. Given the
    course of dealings of the parties, a pre-contractual interest
    expense is particularly unusual in this case since AWP never



Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 8
   made a demand upon default for payment. In short, the “trade
   usage” explanation is not persuasive because the terms are so
   significantly different than the written agreement between the
   parties who are both experienced in the wind energy
   generation field.

   It should also be noted that in its response, EcoGrove stated
   that the amount of interest assessed prior to the contract was
   $3,032,556. The amount claimed, however, was
   $2,034,370.

   We concluded that neither the original amount EcoGrove
   claimed for interest for nonpayment ($2,034,370) nor the
   revised amount it included in its response to this report
   ($3,032,556) should have been included in the cost basis of
   the subject property.

(b) Interest of $3,314,068 charged after the December 2008
    contract date was not assessed in accordance with §3.5,
    Late Payments, of the wind turbine supply agreement.
    Section 3.5 states that when EcoGrove fails to make the
    appropriate payment, AWP would be entitled to accrued
    interest from the date that the payment was due until paid at
    the lesser of prime rate plus 150 basis points or the maximum
    rate permitted by applicable law. Based on the documentation
    provided by EcoGrove during our audit, the interest was not
    properly calculated using the method provided for in the
    agreement.

   It should also be noted that in its response, EcoGrove stated
   that the amount of interest calculated in accordance with the
   agreement was $2,315,882. The amount it claimed,
   however, was $3,314,068. It did not, as part of the
   response, provide details or supporting documents of its
   calculation. The claimed amount of $3,314,068 remains
   questioned.

Note 2. Extended Warranty ($831,160 questioned cost)

EcoGrove included $831,160 in the subject property’s cost basis
for an extended warranty for the wind turbines. The extended



Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 9
warranty, in this case, was not a cost of producing the subject
property since it was not purchased in accordance with the wind
turbine supply agreement between EcoGrove and related party
AWP. This agreement required Ecogrove to provide written notice
to AWP and make payment within 3 business days of such
notice to extend the warranty. EcoGrove provided written notice
to AWP in September 2009; however, payment was not made
until April 2010.

Therefore, we concluded that the cost of the extended warranty
was not a cost of producing the subject property in accordance
with Treas. Reg. §1.263A-1 and should not be included in the
subject property’s cost basis.

EcoGrove Response

EcoGrove did not concur with our finding. In its response,
EcoGrove agreed that the payment was not made until 2010;
however, since the economic performance rules under IRC
§461(h) were met, for tax purposes, EcoGrove capitalized the
cost. EcoGrove also concluded that the extended warranty was
an indirect cost of producing the subject property, as described
under Treas. Reg. §1.263A-1.

OIG Comment

According to the wind turbine supply agreement, EcoGrove was
to provide written notice and make payment to AWP within 3
business days of the notice to exercise the option to extend the
warranty. EcoGrove provided written notice in September 2009
of its decision to exercise the option; however, it did not make
payment until April 2010. Therefore, AWP was not obligated to
provide the extended warranty services until both the notice and
payment were received.

Furthermore, we concluded that the economic performance rule
under IRC §461(h) was not met because no services were
provided by AWP. Economic performance is met only when
either services or properties are provided; in this case, neither
one was provided.




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 10
                        Note 3. Spare Parts ($647,110 questioned cost)

                        Under the original warranty included in the wind turbine supply
                        agreement with related party AWP, EcoGrove was given the
                        spare parts on AWP’s Recommended Spare Parts List at no cost
                        during the 2-year warranty period. The warranty, however, was
                        amended on September 17, 2009, requiring EcoGrove to
                        purchase all spare parts. Upon payment, EcoGrove would
                        assume title to the spare parts and the risk of loss. 8 However,
                        title of the spare parts did not pass to EcoGrove until April 2010,
                        6 months after its 1603 Program claim. Therefore, since they did
                        not own the spare parts at the time of the 1603 Program claim,
                        we determined that the cost of the spare parts was not a cost of
                        producing the subject property and should not be included in the
                        cost basis.

                        EcoGrove Response

                        EcoGrove contested our determination that title and the risk of
                        loss needed to pass in order for it to be considered the owner of
                        the spare parts. EcoGrove considered itself the owner of the
                        producing property, claiming that economic performance was
                        met under IRC §461(h) since it had possession of the spare
                        parts.

                        EcoGrove also stated, based on further review of the spare parts,
                        $10,133 of the amount originally claimed ($647,110) should not
                        have been included in the subject property’s basis. However, it
                        contended the amount of $637,440 for the remaining spare
                        parts was appropriate because the spare parts were considered
                        to be placed in-service, in advance of actual use, at the time the
                        subject property was placed in service. It cited Revenue Rulings
                        (Rev. Rul.) 69-200, 69-201, 81-185, and 2003-37 as support
                        for this position.




8
  (c) Spare Parts. §2.9, “(b) Title to and risk of loss for the Spare Parts shall pass to Buyer at the
time Buyer makes payment for the Spare Parts.”


                        Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)               Page 11
OIG Comment

EcoGrove, based on its original and amended warranty
agreement with AWP, did not own the spare parts at the time of
its 1603 Program claim. Accordingly, we believe the cost of the
spare parts were not a cost of producing the subject property
and should not have been included in the cost basis.

EcoGrove received the spare parts from its sister company AWP
in April 2009 in accordance with §2.9 Stock of Spare Parts
under the effective warranty agreement. The spare parts were to
be provided to EcoGrove at no additional cost and were to be
stored at the project site during the warranty period. The spare
parts were to remain the property of AWP until they were
installed or until the end of the warranty period. At the request
of EcoGrove, the warranty agreement was amended in
September 2009, 2 months after the July 9, 2009 in-service
date of the subject property, requiring EcoGrove to purchase
spare parts that it had already received in April 2009. The
amendment stated that EcoGrove would pay the purchase price
within 30 days of receipt of invoice. The amendment further
stated that at the time of payment, the title to and risk of loss
for the spare parts would pass to EcoGrove. EcoGrove received
the invoice from AWP in October 2009 and did not make
payment until April 2010, 6 months later.

In summary, based on our analysis and review of EcoGrove’s
original and amended warranty agreement with AWP, we
concluded EcoGrove was not the owner of the spare parts since
the terms and conditions of the amendment were not met at the
time of its 1603 Program application; AWP was the owner.
Additionally, economic performance was not met because
EcoGrove only had possession of AWP’s spare parts as delivery
and storage were required in the original warranty agreement.
We concur that the spare parts could be capitalized and
depreciated; however, the subject property and the spare parts
are two separate and distinct assets with separate cost basis and
in-service dates.




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 12
           Note 4. Transmission Lines ($79,000 questioned cost)

           EcoGrove included in the subject property’s cost basis $75,000
           for structural steel and weatherization materials used for the
           transmission line towers plus $4,000 of related indirect costs.
           According to Treasury’s Program Guidance, transmission line
           costs are not eligible for the 1603 payment. Therefore, the
           transmission line materials and related indirect costs should not
           have been included in the subject property’s cost basis.
           EcoGrove management agreed with this assessment.

           EcoGrove Response

           EcoGrove management concurred with our finding and noted that
           the cost basis should be adjusted by the amount questioned.

           Note 5. Office Furniture ($29,130 questioned cost)

           EcoGrove included $29,130 for office furniture in the cost basis
           of the subject property. Office furniture is neither a direct nor
           allocable indirect cost of producing the subject property, a wind
           energy facility, and therefore, should not be included in the
           subject property’s cost basis.

           EcoGrove Response

           EcoGrove management concurred with our finding and noted that
           the cost basis should be adjusted by the amount questioned.

           See appendix 2 for EcoGrove’s response to this report.



Recommendations
           We recommend that the Fiscal Assistant Secretary do the
           following:

            1. Ensure that EcoGrove reimburse Treasury $2,080,452 for the
               excessive 1603 Program award received for the subject
               property.



           Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 13
                         2. Direct EcoGrove, Acciona Energy North America Corporation,
                            and any other affiliated companies not to include in
                            applications for 1603 Program awards inappropriate or
                            otherwise ineligible costs in the claimed cost basis.

                        Management Response

                        Management expressed partial concurrence with our
                        recommendations and agreed that EcoGrove should reimburse
                        Treasury $35,479 for costs associated with transmission lines,
                        office furniture, and expendable spare parts. However,
                        management was unable to make a determination with respect
                        to the remainder of the costs questioned. Management to seek
                        guidance on the tax accounting issues and will take all
                        appropriate action to seek reimbursement if warranted.

                        See appendix 3 for management’s response to this report.

                        OIG Comment

                        Management’s response partially meets the intent of our
                        recommendations. We consider the cost questioned that requires
                        further review to be an open recommendation, and, in
                        accordance with Office of Management and Budget (OMB)
                        Circular No. A-50 Audit Follow-Up 9 and Treasury Directive (TD)
                        40-03, Treasury Audit Resolution, Follow-Up, and Closure 10 , a
                        management decision must be made within 6 months of report
                        issuance.




9
    OMB Circular No. A-50, Action Requirements 8.a. (2) and (5)
10
     TD 40-03, 5(j)



                        Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 14
                              ******

The information in this report should not be used for purposes other
than what was originally intended without prior consultation with
the Office of Inspector General regarding its applicability.
Information contained in this report may be confidential. The
restrictions of 18 U.S.C. §1905 should be considered before the
information is released to the public. We appreciate the courtesies
and cooperation provided to our staff during the audit. If you wish
to discuss this report, you may contact me at (202) 927-5400 or
Donna Joseph, Audit Director, at (202) 927-5784. Appendix 4 lists
the major contributors to this report.


/s/

Marla A. Freedman
Assistant Inspector General for Audit




      Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 15
Appendix 1
Schedule of Questioned Costs


A questioned cost is a cost that is questioned by the auditor
because of an audit finding: (1) which resulted from an alleged
violation or possible violation of a provision of a law, regulation,
contract, grant, cooperative agreement, or other agreement or
document governing the use of Federal funds, including funds
used to match Federal funds; (2) where the costs, at the time of
the audit, are not supported by adequate documentation; or (3)
where the costs incurred appear unreasonable and do not reflect
the actions a prudent person would take in the circumstances.
Questioned costs are to be recorded in the Joint Audit
Management Enterprise System (JAMES). The questioned costs
will also be included in the next Office of Inspector General
Semiannual Report to the Congress.

Recommendation Number                            Questioned Costs


Recommendation 1                                 $2,080,452

The questioned costs relate to excessive funds that Treasury
awarded to EcoGrove under the 1603 Program. The amount
questioned is 30 percent of the excessive costs included in
EcoGrove’s cost basis. As discussed in the audit report, the
questioned costs in the cost basis consist of five components:
(1) $5,348,438 associated with interest for late payment, (2)
$831,160 associated with an extended warranty that was not a
direct cost of producing the subject property or necessary to
produce the subject property, (3) $647,100 associated with
recommended spare parts that was not owned by EcoGrove, (4)
$79,000 associated with ineligible transmission line costs, and
(5) $29,130 associated with furniture that is not a direct or
indirect allocable cost to producing the subject property.




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 16
Appendix 2
EcoGrove’s Response




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 17
Appendix 2
EcoGrove’s Response




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 18
Appendix 2
EcoGrove’s Response




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 19
Appendix 2
EcoGrove’s Response




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 20
Appendix 2
EcoGrove’s Response




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 21
Appendix 2
EcoGrove’s Response




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 22
Appendix 2
EcoGrove’s Response




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 23
Appendix 2
EcoGrove’s Response




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 24
Appendix 2
EcoGrove’s Response




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 25
Appendix 2
EcoGrove’s Response




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 26
Appendix 2
EcoGrove’s Response




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 27
Appendix 2
EcoGrove’s Response




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 28
Appendix 3
Management’s Response




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 29
Appendix 4
Major Contributors To This Report


Donna Joseph, Director
Erica Wardley, Audit Manager
James Hodge, Auditor-in-Charge
Cheryl Sroufe, Auditor
Lisa Carter, Auditor
Roberta Wright, Auditor
Jenny Hu, Referencer




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 30
Appendix 5
Report Distribution


Department of the Treasury

Assistant Secretary for Management of the Treasury,
   Chief Financial Officer, and Chief Performance Officer
Fiscal Assistant Secretary
Deputy Chief Financial Officer
Director, Office of Accounting and Internal Controls
Deputy Director, Office of Performance Budgeting
Program Manager, Office of Fiscal Assistant Secretary

Office of Management and Budget

OIG Budget Examiner

Acciona Energy North America Corporation

Chief Financial Officer
Vice President, Accounting




Audit of EcoGrove Wind LLC Payment Under 1603 Program (OIG-11-103)   Page 31
